                                  CLOSEOUT FOR dWWHWM-
                                                       ~q?rlooo34
                 1




This case was opened after receiving a letter fiom a university1 that included allegations of
misconduct in science against a professo? (Subject 1) and a graduate student3(Subject 2) who,
although they were working together, were affiliated with different universities. The
complainant alleged that the subjects stole ideas and data while working collaboratively with a
research team4 (Team A). The complainant suggested that the subjects used this information to
M e r the efforts of another research team5 (Team B) that the subjects were involved with,
allowing them to publish their results6 before Team A. Specifically, the complainant made four
allegations against the subjects: (1) plagiarism, (2) abuse of confidentiality, (3) property
violation, and (4) failure to report observed major offenses.

The subjects' universities prepared two separate inquiry reports. Neither inquiry committee
found that the allegations were of substance. Subject 1's university saw no reason to carry out an
investigation after determining that Team A never established an open collaboration with Subject
 1. They also determined that if Subject 1 had disclosed information about his work with Team B
to Team A, that it would have "violated the trust placed in" Subject 1 by Team B. Therefore,
they determined that Subject 1 was not obligated to reveal information about the ongoing
research of Team B to Team A. Subject 2's university made similar findings, but also noted that
his involvement in these matters was derived fiom his work with Subject 1.

OIG Analysis

From the evidence provided, we concluded that the subjects provided technical support to both
Team A and Team B. The teams shared similar research goals,7 but were applying very different
methodologies to obtain their results. The subjects were assisting both teams in the verifying
final research results. The collaboration between Subject 1 and Team B was established in 1990
and resulted in several publications on their findings. Team A contended that a collaborative
relationship existed with the subjects; the subjects disagree. After reviewing correspondence




                                       Page 1 of 3                               ~97-34
                                          CLOSEOUT FOR h19710034

 between Subject 1 and members of Team A, we determined that a collaborative relationship was
 established for the limited purpose of completing certain verification analyses and to provide
 training to several of Team A's members.

 Allegation #1: Plagiarism. It was alleged that the subjects published with Team B a paper with
 "strikingly similar information" to the research findings later published by Team A, and
 therefore, that the subjects inappropriately used text or ideas from Team A. After evaluating the
 timing of the research efforts and manuscript preparation; and the expertise of the two teams, we
 determined that the allegation of plagiarism was unsupported.

 Allegation #2: Breach of confidentiality. The complainant stated that they had an "expectation
 of confidentiality" that was breached. As described above, the timing of the research findings
 and draft manuscript do not support the allegation that a confidential relationship was breached.
 Secondly, there are few, if any, defined norms about establishing or maintaining confidentiality
 in collaborations. Without a written or oral agreement about confidentiality, it is unclear that the
 parties would all have the same "expectation." In a letter provided by the complainants, Team A
 negotiated a confidentialty agreement with another collaborator. It is unclear why they did not
 execute such an agreement with the subjects.

With regard to disclosure, the subjects were not obligated to inform Team A of their ongoing
research with Team B. Team B is well published in this area and subject 1 was a co-author on
several related papers. As a professional courtesy, it may have been better if the subjects had
disclosed general information about their ongoing similar research, especially in light of the
admitted "race to publish" these results.

Allegation #3: Property violation. The complainant alleged that the subjects gained unauthorized
access to their data andlor research results. Team A gave the subjects certain research material
with no explicit restrictions on its use. Team B's research findings were completed prior to the
subjects' possession of these materials; therefore, it is clear that they did not use Team A's
materials in their research with Team B. There is, therefore, no substance to this allegation.

Alle~ation#4: Failure to report ma-ior violations. The complainant alleged that the subjects, as
individuals, have a responsibility to report unethical actions and that they violated this
responsibilty by not reporting the alleged acts (allegations 1-3). The complainant alleged that the
subjects, as individuals, have a responsibility to report unethical actions and that they violated
this responsibility by not reporting the alleged acts (allegations 1-3). Because we found no
substance to the underlying allegations of misconduct in science, we do not need to determine in
this case whether one's failure to report one's own acts of misconduct in science can ever
constitute an independent act of misconduct in science.




earn    B's research was initiated in 1992; their initial findings were completed in January 1997; and the initial draft
of their manuscript was completed two weeks before the visit by a member of Team A to the subject's laboratory.
Team B was experienced in all aspects of their research, therefore, it was unlikely that they would need Team A's
research results to complete their results.


                                                  Page 2 of 3                                         M97-34
                                  CLOSEOUT FOR M9710034

Conclusion

We conclude that there is not substance to the allegation. We sent a letter to the subjects urging
them to disclose proposed and current collaborations or overlaps between their various projects
to their collaborators. No further action will be taken in this case; this inquiry is closed.

cc:    Integrity, IG




                                        Page 3 of 3                                M97-34
